APPLICATION AND
SOLICITATION
DISCLOSURE

FOUNDER'S CARD
ALUMNI REWARDS CARD
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

12.40%
This APR will vary with the market based on the Prime Rate.

APR for Balance Transfers

3.90% Introductory APR until December 31, 2022.

APR for Cash Advances

After that, your APR will be 12.40% . This APR will vary with the market
based on the Prime Rate.
12.40%
This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest on
Purchases
Minimum Interest Charge
For Credit Card Tips from the
Consumer Financial Protection Bureau
Fees
Set-up and Maintenance Fees
- Annual Fee
- Account Set-up Fee
- Program Fee
- Participation Fee
- Additional Card Fee
- Application Fee
Transaction Fees
- Balance Transfer Fee
- Cash Advance Fee
- Foreign Transaction Fee
- Transaction Fee for Purchases
Penalty Fees
- Late Payment Fee
- Over-the-Credit Limit Fee
- Returned Payment Fee

Your due date is at least 25 days after the close of each billing cycle. We will
not charge you any interest on purchases if you pay your entire balance by
the due date each month.
None
To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at http://www.consumerfinance.gov/learnmore.

None
None
None
None
None
None
None
None
None
None
Up to $27.00
None
None

How We Will Calculate Your Balance:
We use a method called "average daily balance (including new purchases)."
Promotional Period for Introductory APR:
The Introductory APR for balance transfers will apply to transactions posted to your account from 01/01/2021 until
12/31/2021 . Any existing balances on Pennsylvania State Employees Credit Union loan or credit card accounts are not
eligible for the Introductory APR for balance transfers.

SEE NEXT PAGE for more important information about your account.
© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

©PSECU Form #3895 1220

03720921-MXC10-C-2-040219 (MXC101-E)

Effective Date:
The information about the costs of the card described in this application is accurate as of: April 1, 2020.
This information may have changed after that date. To find out what may have changed, contact the Credit Union.
For California Borrowers, the FOUNDER'S CARD - ALUMNI REWARDS CARD may be a secured credit card.
Credit extended under this credit card account may be secured by various personal property and money
including, but not limited to: (a) any goods you purchase with this account, (b) any shares you specifically
pledge as collateral for this account on a separate Pledge of Shares, (c) all shares you have in any individual or
joint account with the Credit Union excluding shares in an Individual Retirement Account or in any other account
that would lose special tax treatment under state or federal law, and (d) collateral securing other loans you have
with the Credit Union excluding dwellings. Notwithstanding the foregoing, you acknowledge and agree that
during any periods when you are a covered borrower under the Military Lending Act your credit card will be
secured by any specific Pledge of Shares you grant us but will not be secured by all shares you have in any
individual or joint account with the Credit Union. For clarity, you will not be deemed a covered borrower if: (i) you
establish your credit card account when you are not a covered borrower; or (ii) you cease to be a covered
borrower.
Other Fees & Disclosures:
Late Payment Fee:
$27.00 or the amount of the required minimum payment, whichever is less, if you are one or more days late in making a
payment.
PIN Replacement Fee:
None.
Rush Fee:
$40.00.
Unreturned Card Fee:
None.
Collection Costs:
You agree to pay all costs of collecting the amount You owe under this Agreement, including court costs and reasonable
attorney's fees.
Periodic Rates:
1.03%
The Purchase APR is 12.40% which is a monthly periodic rate of
The Introductory Balance Transfer APR is 3.90% which is a monthly periodic rate of 0.3250% .
1.03%.
The Balance Transfer APR is 12.40% which is a monthly periodic rate of
1.03%
The Cash Advance APR is 12.40% which is a monthly periodic rate of
Variable Rate:
The ANNUAL PERCENTAGE RATE may increase in the future. The ANNUAL PERCENTAGE RATE is subject to change
on the first day of the billing cycle monthly to reflect any change in the Index and will be determined by the Prime Rate on
first day of each calendar month, to which We add a margin. The ANNUAL PERCENTAGE RATE will never be greater
than 18.00%. Any increase in the ANNUAL PERCENTAGE RATE will result in an increase in the amount of the interest
You will pay, may increase Your minimum payment, and may increase the number of payments to pay off Your balance. If
the Index is no longer available, the Credit Union will choose a new index which is based upon comparable information.
Margin:
Purchases will be charged at 9.15% above the Index.
Balance Transfers will be charged at 9.15% above the Index.
Cash Advances will be charged at 9.15% above the Index.

© CUNA Mutual Group 2009, 10, 12, 16 All Rights Reserved

03720921-MXC10-C-2-040219 (MXC101-E)

